<html>
<title> - THE BALKANS: THREATS TO PEACE AND STABILITY</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



 
                             THE BALKANS: 
                     THREATS TO PEACE AND STABILITY

=======================================================================

                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON EUROPE, EURASIA, AND EMERGING THREATS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 17, 2017

                               __________

                           Serial No. 115-47

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                       
                       
                       

                                 ______
                                 
                                 
                   U.S. GOVERNMENT PUBLISHING OFFICE
                   
 25-456 PDF                 WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                                      
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

         Subcommittee on Europe, Eurasia, and Emerging Threats

                 DANA ROHRABACHER, California, Chairman
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
TED POE, Texas                       BRAD SHERMAN, California
TOM MARINO, Pennsylvania             ALBIO SIRES, New Jersey
JEFF DUNCAN, South Carolina          WILLIAM R. KEATING, Massachusetts
F. JAMES SENSENBRENNER, Jr.,         DAVID N. CICILLINE, Rhode Island
    Wisconsin                        ROBIN L. KELLY, Illinois
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Hoyt Brian Yee, Deputy Assistant Secretary, Bureau of 
  European and Eurasian Affairs, U.S. Department of State........     4
Gordon N. Bardos, Ph.D., president, South East European Research 
  and Consulting.................................................    30
The Honorable Joseph J. DioGuardi, founding president, Albanian 
  American Civic League (former Member of Congress)..............    46
Daniel Serwer, Ph.D., academic director of conflict management, 
  School of Advanced International Studies, Johns Hopkins 
  University.....................................................    55

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Hoyt Brian Yee: Prepared statement...........................     7
Gordon N. Bardos, Ph.D.: Prepared statement......................    33
The Honorable Joseph J. DioGuardi: Prepared statement............    49
Daniel Serwer, Ph.D.: Prepared statement.........................    57

                                APPENDIX

Hearing notice...................................................    76
Hearing minutes..................................................    77
The Honorable Eliot L. Engel, a Representative in Congress from 
  the State of New York:
  Report from the Humanitarian Law Center dated March 1, 2017....    78
  Letter from the National Federation of Croatian Americans......    80
  Statement of the National Federation of Croatian Americans 
    Cultural Foundation..........................................    82
The Honorable Joseph J. DioGuardi:
  ``The Macedonian Crisis--A failure of EU conflict 
    management?,'' by the Centre for European Policy Studies 
    (CEPS).......................................................    85
  ``Crisis brewing in Macedonia,'' by Roland Gjoni and Shirley 
    Cloyes DioGuardi.............................................    88
  Interview of Albanian Security Guard on Violence in Macedonian 
    Parliament...................................................    91
  Photos supplied for the hearing................................    96
Internet link for ``Albania's Prosecutor's Office, Judicial 
  Reform, & the Role of US Ambassador Donald Lu in Tirana'' 
  submitted for the record by the Honorable Dana Rohrabacher, a 
  Representative in Congress from the State of California, and 
  chairman, Subcommittee on Europe, Eurasia, and Emerging 
  Threats, and ``The Explusion of the Albanians'' submitted for 
  the record by the Honorable Joseph J. DioGuardi................    99
Questions for the record submitted to Mr. Hoyt Brian Yee and 
  Daniel Serwer, Ph.D., by:
  The Honorable Dana Rohrabacher.................................   100
  The Honorable Francis Rooney, a Representative in Congress from 
    the State of Florida.........................................   101
  The Honorable Lee M. Zeldin, a Representative in Congress from 
    the State of New York........................................   102


                             THE BALKANS: 
                     THREATS TO PEACE AND STABILITY

                              ----------                              


                        WEDNESDAY, MAY 17, 2017

                       House of Representatives,

         Subcommittee on Europe, Eurasia, and Emerging Threats,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:00 p.m., in 
room 2200 Rayburn House Office Building, Hon. Dana Rohrabacher 
(chairman of the subcommittee) presiding.
    Mr. Rohrabacher. I call to order this hearing of the 
Subcommittee on Europe, Eurasia, and Emerging Threats. Today's 
topic is, The Balkans: Threats to Peace and Stability.
    After the ranking member and I each take our 5 minutes to 
make opening remarks, each member present will have the 
opportunity to make an opening statement for themselves. We 
will, then, proceed with our first of two panels.
    Without objection, all members may have 5 days to submit 
statements, questions, and extraneous materials for the record.
    Building peaceful, democratic, and stable states in the 
Balkans has been an issue that has been close to me for many 
years. As I know, it has also been close to several of our 
friends here. Especially I hope that the ranking member might 
stop in, Mr. Engel, who has also been involved in the Balkans 
for such a long time.
    I am pleased to be holding this hearing and thankful that 
we have an official from the State Department to take part in 
the hearing. As we are now at the start of a new Congress and 
the start of a new administration, this is an ideal time for us 
to reflect on the situation in the region and to recommit 
ourselves to playing a positive role in that part of the world.
    While the Western Balkan nations have achieved some major 
steps forward over these last two decades, including the 
independence of Kosovo, much remains to be done. Issues of 
governance, political development, corruption, judicial 
independence, media freedom, economic security, xenophobia, and 
reconciliation between democratic players in that region.
    Today witnesses will get into specific details of the 
challenges and opportunities that exist in the region. But 
several points to appear very clear to me.
    First, while European integration provides a framework or 
goal for the Balkan nations, that has proven to be an 
insufficient motive to inspire or compel political 
decisionmakers in the Balkans to do the right thing in far too 
many cases. Leadership from the United States remains 
absolutely essential. Obviously, Brussels can't hack it on 
their own.
    Second, we should remain committed to our shared values and 
hold the governments of the region accountable to the standards 
they profess. Perhaps we have been too tolerant of democratic 
backsliding and authoritarian politicians dressed up as 
democrats.
    Third, at a time when foreign assistance and development 
aid accounts are set for reduction, they will be reduced, we 
need to rethink our points of influence and how we engage in 
that region. As an example, I will remind the panel that I have 
put forward a plan for a mutual land swap or, what would be 
more likely, a border change between Serbia and Kosovo as part 
of a process of normalizing relations.
    If the Serb community in northern Kosovo wishes to be 
governed by Belgrade, they have every right and we should 
acknowledge it. This is the same principle that led us to 
support Albanian Kosovars in their desire for self-
determination. Border adjustments are not just a magic bullet, 
but forcing populations to live in outdated borders or borders 
that are imposed upon them is a poor use of limited diplomatic 
resources.
    To help the subcommittee work through current issues and 
find creative solutions, we have an excellent panel of experts 
today. But, first, we will be hearing testimony from the State 
Department, and certain activities of the State Department and 
USAID in the region have been subject to some controversy with 
allegations of impropriety being lodged, especially those 
allegations that are actually presented by several United 
States Senators. We look forward to the answers on those topics 
that have been brought up.
    So, Ranking Member Meeks, I will yield to you for your 
opening statement, and anyone else after that who would like to 
have a short opening statement.
    Mr. Meeks?
    Mr. Meeks. Thank you, Mr. Chairman, for holding this 
hearing to provide us with a timely update on the Western 
Balkans region. With the EU understandably consumed by domestic 
politics, we must not forget the importance and delicate state 
of progress in the Balkans. It is an opportunity to examine the 
tough issues and the potential for advancement for a region 
that is struggling to move beyond its history, outside 
influence, and difficult social and economic factors.
    I am especially pleased to have Mr. Yee from the 
administration with us today. As I have stressed throughout my 
tenure on the Foreign Affairs Committee, the work that our 
diplomats do in the field to advance American interests under 
difficult circumstances is undervalued. And I would like to 
take this opportunity to thank you for your service and let you 
know that there is bipartisan concern. Thank you collectively 
for what you have done, but there is bipartisan concern about 
the administration's planned budget cuts to the State 
Department.
    I am not saying because I am worried about your job, Mr. 
Yee. We think your job is okay. But I am saying this today 
because I am worried about America's place in the world and 
what a rudderless Balkan region would mean.
    The administration has not given our diplomats the tools or 
the human resources to do the daily diplomatic work in the 
Balkans. Without the appointees needed to direct the ship, the 
aforementioned vacuum will grow.
    Into this space comes the Kremlin which exploits the 
troubles on the ground. Young political actors and fragile 
institutions are pressured by corruption, a dismayed 
population, and other temptation. In some cases, it is the 
Slavic culture ties which the Kremlin plays. Economically 
speaking, easy money talks. Corrupt Russian money has brought 
up critical infrastructure, flooded the airways with this 
information, and hung a cloud over democracy and transparency. 
``We are all corrupt,'' the Kremlin narrative goes, and the 
West is made out not to be any different.
    History has proven that democracy requires hard work, 
attention, and investment from leadership. In Ukraine, for 
example, groundwork has been laid for reform, but with 
President Poroshenko at the top, who is reluctant to divest 
from his business, the work is easily undermined.
    Unfortunately for us, as of late, here in the United States 
we have a leader who attacks the press, threatens our 
independent judicial system, which undermines our democracies, 
demands loyalty to him over country, and who refuses to have 
transparency with reference to his economics. It is immensely 
more difficult to encourage reforms when our very institutions 
are threatened here in the United States.
    Today European politicians are growing skeptical toward 
enlargement. America, one can argue, is turning inwards. And 
with respect to the Balkans and this autopilot approach, it is 
damaging. It is up to Congress to support healthy democratic, 
economic, and peaceful progress on the ground.
    The United States has invested billions of dollars and many 
lives in order to ensure peace and prosperity in the region. I 
hope that in today's hearing we can examine the broader U.S. 
interest in the region, integration into western institutions. 
Croatia, and soon Montenegro, provide proof that the European 
Peace Project is alive and still very attractive in the region. 
Macedonia, we learned of encouraging news, as a government may 
soon be formed that will work to protect the rights of all 
minorities.
    Nevertheless, there are pockets of trouble on a microscale 
that are bubbling to the surface. Government boycotts in 
Albania, Kremlin-supported coup and assassination attempts in 
Montenegro, and worries by ethnic groups are just a few of the 
current events that threaten to derail peace in the region.
    Governments there, as well as important civil society 
actors and members of the press, should know that we are 
concerned with the state of affairs after this hearing. We look 
forward to following up on what is discussed at this hearing.
    The Kremlin's work to destabilize the situation is not 
going unnoticed, but I fear if we willfully ignore or are 
welcomed by some, there will be dangerous consequences for the 
region as well as the United States of America.
    So, I look forward to hearing and having a constructive 
discussion where we can explore what Congress can offer and do 
to help, because the Balkans are very important in the global 
world order and to the United States of America. We cannot--we 
cannot--take our eyes off the prize of working with and in the 
Balkans.
    And I yield back.
    Mr. Rohrabacher. Congressman Cicilline?
    Mr. Cicilline. Thank you, Mr. Chairman, and thank you, 
Ranking Member Meeks, for holding this hearing today. And thank 
you to our witnesses for being with us today.
    I just returned this past week from a very useful and 
informative Judiciary Committee trip to the Balkans where we 
visited Bosnia, Albania, Macedonia, and Kosovo. What really 
struck me at the time was the central importance to each of 
these countries that the U.S. continue to support their 
democracies and their deep gratitude for America's strong 
presence in the region, and the danger of any retreat from our 
participation or engagement in the region, as Congressman Meeks 
just outlined.
    But there remain serious challenges to good governance, to 
judicial reform, to serious economic development, and to 
efforts to ream out corruption. And I was reminded during the 
trip of the famous words of Winston Churchill who once said, 
``The Balkans produce more history than they can consume.''
    But what was very clear to me was that, after many years of 
war and turmoil and change, the Balkans have found a fragile 
peace. And I strongly believe it is in the best national 
security interest of the United States to continue to support 
reform, development, reconciliation, and maintaining the peace 
in the Balkans, and that this is not a time for us to retreat 
in any way, but to continue to understand the importance of 
this region, the importance of our partnership with our allies 
in this region, and the danger of creating space for others 
with less virtuous objectives.
    And so, I very much look forward to our hearing today, and 
I yield back.
    Mr. Rohrabacher. Thank you very much.
    Our first witness is Deputy Assistant Secretary of State 
Hoyt Yee. He was appointed to his current post in the Bureau of 
Europe and Eurasia in September 2013. He is a career Foreign 
Service Officer and previously stationed in Montenegro, Greece, 
and, most recently, as the Deputy Chief of mission in Croatia.
    In the past, he served as Director for European Affairs on 
the National Security Council, and before that, he worked at 
NATO headquarters as Deputy Director of the private office to 
the Secretary General.
    So, Mr. Secretary, if you could give us 5 minutes' worth of 
your thoughts and, then, we will give you some questions in 
return.

 STATEMENT OF MR. HOYT BRIAN YEE, DEPUTY ASSISTANT SECRETARY, 
  BUREAU OF EUROPEAN AND EURASIAN AFFAIRS, U.S. DEPARTMENT OF 
                             STATE

    Mr. Yee. Thank you, Mr. Chairman.
    Mr. Chairman, Ranking Member Meeks, members of the 
subcommittee, thank you for inviting me to discuss the 
situation in the Western Balkans. Over the years, Congress, and 
in particular this subcommittee, have played an important role 
in working with the countries of the region and in shaping an 
environment that advances U.S. interests, and we welcome very 
much this partnership.
    Mr. Chairman, although the Balkans no longer dominate 
international headlines as they once did, the region still 
faces enormous challenges that, left unaddressed, pose a threat 
to U.S. interests in Europe. Ethnic tensions throughout the 
Balkans are once again on the rise.
    The recent violence in Macedonia underscores the severity 
of its political problems. As progress in the Serbia-Kosovo 
dialog stalls, stability in the Balkans will remain vulnerable. 
And without needed structural reform, Bosnia is at risk of 
becoming a failed state.
    Across the region, nationalism is growing and domestic 
political rhetoric is increasingly divisive. From teargas in 
Kosovo's Parliament to challenges from the Republic Srpska, to 
the authority of Bosnia's Constitutional Court, nationalist 
politicians are openly testing democratic norms and 
institutions.
    Compounding the trouble, lackluster economic growth has 
failed to deliver the standards to which people in the Western 
Balkans have aspired. In no small part, this is due to 
significant public corruption and endemic weaknesses in the 
rule of law. Even more alarming, a small number of those who do 
not or cannot leave are increasingly vulnerable to the twisted 
message of violent extremism, ISIS and other violent groups are 
finding success in recruiting fighters and supporters from the 
Balkans.
    Finally, Russia is increasingly working to undermine 
progress in the Balkans. From a bold attempt to undermine the 
government in Podgorica, to more subtle support for 
secessionist rhetoric in Bosnia and Herzegovina, Russia seeks 
to thwart advancement toward NATO and EU membership wherever it 
can.
    Since the end of the wars in the 1990s, we and our European 
allies have incentivized the necessary political and economic 
reforms and reconciliation with neighbors by linking these 
actions to eventual membership in the European Union and NATO. 
Those linkages have been powerful and effective, but there is 
reason to be concerned that they are losing their drawing 
power, as the prospects for further expansion appear to dim.
    It is clear that we cannot take for granted stability and 
democracy in the Balkans. The risk of renewed conflict is on 
the rise and the forces against democracy are growing. Left 
unattended, the problems of the region will fester and generate 
conflicts that will almost inevitably draw us in. However, with 
active engagement, we can keep this region on the Euro-Atlantic 
path and manage the challenges without a disproportionate 
expenditure of resources.
    Recent history has repeatedly shown us there is no 
substitute for active U.S. leadership in the Balkans and strong 
partnership with the European Union. Our work in the Balkans 
helps make Americans safer as the countries of the region have 
partnered with us more effectively to fight terrorism and 
extremism and are becoming net contributors to international 
peace and stability operations rather than the subjects of 
them.
    On April 21, the United States ratified the accession 
protocol for Montenegro to join NATO. Montenegro's entry into 
NATO on June 5th will be the result of years of reforms 
completed with assistance from the United States and other 
partners. Montenegro's experience provides a clear example that 
structural reform strengthens a country's economy and 
democracy, allowing it to become a better and stronger security 
partner and, ultimately, a force for regional stability.
    When it comes to tracking and disrupting terrorist 
activity, we continue to have strong, willing partners 
throughout the Balkans, and they need our support. Excellent 
regional cooperation with Macedonia, Albania, and Kosovo broke 
up an attempted terrorist attack against an Albania-Israel 
football match in Shkoder last November.
    These countries in the Balkans can help us, however, only 
if they are politically stable and the region is peaceful. We 
continue to work toward that end, but more needs to be done.
    We have also developed a multifaceted approach to push back 
against Russian malign influence. Our focus on anti-corruption 
and rule-of-law reforms in the region forms the backbone of our 
strategy.
    Increased government transparency and accountability 
counters Russia's efforts to exploit corrupt practices to make 
countries more vulnerable to Russian pressure. We are 
supporting independent media and investigative journalists 
through small grants and training, and we are sending American 
experts to the region to speak with opinion leaders.
    In order to reduce vulnerabilities, we are promoting energy 
security, including through diversification. We are also using 
our military assistance programs to counteract Russian malign 
influence by fortifying the human capital of militaries of the 
region and presenting options that allow countries to move away 
from overdependence on Russian military equipment.
    Mr. Chairman, looking ahead, we have much work to do, but 
also much to build on. I want to thank you for this opportunity 
to testify before this committee. Thank you.
    [The prepared statement of Mr. Yee follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
    
                              ----------                              

    Mr. Rohrabacher. Well, thank you very much. I have a few 
questions for you and, then, we will let Mr. Meeks proceed as 
well.
    Let me just ask, right now, how would you rate the peace? 
The basic issues that brought us into the Balkans into the 
first place with Kosovo and Serbia. Is that a peace that is 
holding? What are you expecting from that? Are you optimistic 
or are you pessimistic, or what is your take on that peace?
    Mr. Yee. Mr. Chairman, I am optimistic about the prospects 
for reconciliation and peace, peaceful relations between Serbia 
and Kosovo. Since 2013, these two countries have been working 
to normalize their relations through a process facilitated by 
the European Union with strong U.S. support. And while the 
progress has been slow and at times painful, we believe it is 
headed in the right direction. There have been a number of 
agreements reached by both governments which a few years ago, 
back before 2013, many of us would have thought to be, if not 
impossible, extremely difficult.
    So, there is agreement now on an agenda of items that were 
concluded or reached agreement in August 2015. They are now in 
the process of implementing such agreements as the relations 
between the Kosovo-Serb population with the rest of the 
country, and the elimination of parallel institutions. So, 
there is no longer a Serb set of institutions and a Kosovo 
Government set of institutions. There will be only one set.
    That is not to say that it will be easy to implement these 
agreements or that the relations will be always smooth. I am 
certain there will still be more areas of disagreement and a 
lot of hard work going forward, but the important element that 
makes me optimistic is that the European Union and the United 
States Government remain committed to helping these countries, 
along with other partners, to implement what they have already 
agreed and to go further to find a long-lasting solution.
    Mr. Rohrabacher. Yes, you mentioned about the European 
Union and the role it plays, but the European Union seems to 
be, from a distance, seems to be actually not in a situation 
where its power and influence is actually increasing. It looks 
like from a distance that it is even disintegrating back home. 
What is your prediction in terms of the European Union's 
weakening and how that will impact on the Balkans?
    Mr. Yee. Mr. Chairman, I would agree that the incentive of 
EU membership, the drawing power of the prospect for many 
countries in the Western Balkan to join the European Union has 
weakened in recent years, for many of the reasons you 
mentioned.
    However, what is important for both Kosovo and Serbia is 
that, as they make progress on the reforms that they are being 
asked to make in order to become more compatible with EU 
standards, as they make progress, they are given positive 
feedback from the EU and from us. And it is still the case for 
Kosovo, in particular, but also for Serbia, that if Kosovo will 
take the steps necessary, it will gain further--rewards is too 
strong a word, but reinforcement from the EU that they are on 
the right path.
    The example I would use, Mr. Chairman, is on the border 
demarcation agreement with Montenegro that Kosovo signed 
several years ago, which now needs to be ratified by its 
Assembly. The European Union has assured Kosovo that, if the 
Assembly of Kosovo adopts this agreement, ratifies the 
agreement, the people of Kosovo will, then, get what every 
other citizen of Europe has, which is visa-free travel. And 
that is an important step forward. That is still a real 
possibility.
    So far, it has not been the European Union withdrawing that 
possibility. It has been Kosovo not willing, not able to take 
that step. As long as these incentives are still valid, still 
exist, we and the European Union can still help them make these 
reforms.
    Mr. Rohrabacher. So, it would be a positive influence. One 
of the things that we have heard, and we have this letter from 
several United States Senators, is that George Soros, who many 
of us believe holds beliefs that are contrary to what our 
country, what America is all about, anyway, that he has 
actually been very involved in the Balkans and, also, very 
involved in the Balkans in cooperation with various American 
programs. What programs has we been working with George Soros 
on? And is that a good thing?
    Mr. Yee. Mr. Chairman, first, as a general statement, I 
want to say that recent stories, accusations about the Open 
Society Institute and Mr. Soros himself playing an outsized 
role in the Balkans are greatly exaggerated. And what I want to 
make clear to this subcommittee, this committee, is that the 
efforts by the United States Government, by the European Union, 
are their own. In other words, we are not under the influence 
of any one person, any one institution, not Mr. Soros or anyone 
else.
    Rather, it is the other way around; that individuals and 
NGOs and other organizations are supporting what the European 
Union and the United States Government have been promoting in 
terms of advancing the types of reforms, whether it is rule of 
law, fighting corruption, strengthening free media, 
strengthening an independent judiciary, strengthening civil 
society. All these efforts are efforts that are led primarily 
by the international community, by the EU and U.S.
    Where we have seen support from Open Society over the 
years, many years in the Balkans, has been particularly in the 
area of strengthening civil society, of citizens and citizen-
led groups to become contributors to stability, contributors to 
the reforms that we believe also are important.
    So, there has been some cooperation. There has been both 
from the EU and there has been from the United States some 
support to Open Society over the years in promotion of certain 
projects, but at a much smaller level than many people would be 
led to believe by some of the narrative that is circulating now 
about this disproportionate influence by Mr. Soros.
    Mr. Rohrabacher. So, you are confirming for us that, 
indeed, there has been cooperation with George Soros' projects, 
but they have been exaggerated in terms of the influence that 
Mr. Soros' organizations have had?
    Mr. Yee. Yes, that is correct.
    Mr. Rohrabacher. Mr. Meeks, you may proceed.
    Mr. Meeks. Thank you.
    And, Mr. Secretary, again, welcome.
    Now let me ask--and I think you touched on this in your 
remarks--that the Kremlin exploits weaknesses in the region. We 
know that when we have ethnic tensions and economic malaise and 
high unemployment, lack of transparency, lack of a free press, 
and even a stalled progress toward the EU, that that leaves a 
lot of space for the Kremlin to act.
    So, my question to you is, what do you think are the 
Kremlin's goal in the region, in your humble opinion?
    Mr. Yee. Thank you, Mr. Ranking Member, for that question. 
It would be difficult to predict or to read the mind of 
Vladimir Putin, but I can say that it seems to us that the 
efforts most recently in the Balkans by Russia tend to be aimed 
at increasing the influence of Russia, tend to be to discourage 
the countries of the Western Balkans from advancing toward the 
West, Western institutions, whether it's the European Union or 
NATO. It tends to be as much as possible to create greater 
dependency of these countries on Russia as opposed to on the 
West.
    So, there does not, in my view, appear to be a kind of 
grand strategy; rather, an opportunistic approach at how to 
weaken certain governments that may be favorably disposed 
toward the West, to help governments become, if possible, more 
dependent or more friendly toward Russia. And, of course, there 
is a commercial motivation behind a lot of what Russia does as 
well. For example, in the energy area, to increase the 
dependence of Europe, including the Balkans, on Russian sources 
of hydrocarbons.
    Mr. Meeks. Thank you. Well, let me ask the opposite 
question, too. We have a new administration here in the United 
States. So, what would you say in our engagement, what is new 
in the United States engagement? Is it something new? Is it the 
same as in the past administration? Are there any differences 
or any changes in our goals? That is why I am delighted to have 
you here, because we are trying to figure that out. Unless we 
have individuals like yourself, we don't have anyone to ask. 
So, I am trying to figure out what are our goals or the 
administration's goals and whether they have changed? Are they 
different? If they are different from the prior administration, 
what are they? And please give me an answer to that.
    Mr. Yee. Thank you, Mr. Meeks, for that question. U.S. 
policy in the Balkans, for good reason I believe, has been 
consistent over the last several administrations, going back at 
least two decades, where I believe all of the administrations, 
the United States administrations, have focused on protecting 
and advancing U.S. interests in the Balkans, a very volatile 
area, an area where there has been considerable instability.
    Our interests are supported by the sorts of efforts that 
you mentioned, sir, in your opening statement, as well as the 
chairman, that it is very important for the United States that 
the region be peaceful, it be secure, it be stable; that 
elements, sources of instability, whether it is corruption or 
malign influence from Russia, are dealt with firmly and 
swiftly. We believe that continues to be the interest of the 
United States, to continue helping the region advance toward 
integration with the rest of Europe, to stronger institutions, 
to closer partnerships with the United States, helping us in 
areas such as fighting terrorism, dealing effectively with mass 
migration flows, and, also, reinforcing operations or exercises 
by NATO.
    So, I think the consistency in our policy is based on the 
consistency of American interests in----
    Mr. Meeks. Because I am, you know, concerned because our 
President has said different things about NATO--once it was 
irrelevant; maybe it is relevant again--different things about 
the EU. And when I have talked to some of our allies, they are 
confused also. That is why I am concerned.
    Our President has said he knows more than any of our State 
Department, our intelligence folks, or anything of that nature, 
and that he was going to review and change everything because, 
even though two or three past administrations, Democratic and 
Republican, he says they all are wrong; that no one is smarter 
than he.
    And so, I want to be sure that we are staying on the same 
path and there has not been any indication or any order to 
change the direction, because I think the region is interested 
in wanting to be secure as to what the United States is doing 
because too many places folks don't know. And you are telling 
us that you are going to stay the course.
    All right. I think we are going to do another round, right?
    Mr. Rohrabacher. If you would like.
    Mr. Cicilline?
    Mr. Cicilline. Thank you, Secretary Yee.
    I want to just follow up on Mr. Meeks' last set of 
questions. Have you had discussions with Secretary Tillerson 
directly about the administration's strategy toward the 
Balkans? And can you share with us, if you have, how our 
thinking about the Balkans relates to our strategy in the 
larger region?
    Mr. Yee. Thank you, sir, for that question. I have not 
discussed directly with Secretary Tillerson our strategy in the 
Balkans. However, I can assure you that much of what I have 
described in my testimony has been thoroughly circulated and 
vetted, reviewed by the senior levels of the State Department. 
And we have, of course, kept Secretary Tillerson informed of 
our activities, of our plans, and particularly since the 
Secretary has participated in meetings with NATO allies, that 
he had to decide whether to sign or not to sign the Protocols 
of Accession of Montenegro for NATO membership, and also to 
advise the President, that he is well aware of the importance 
of the region. I believe as we have more time, we will be able 
to----
    Mr. Cicilline. Okay. I understand that. I just wanted to be 
sure that there was--it would be helpful to know if the 
Secretary of State has actually discussed directly with you 
kind of the administration's strategy about this area and the 
region. I take it the answer is no.
    The same thing, I just want to follow up on Mr. 
Rohrabacher's question. The reference to the Soros Foundation 
was actually made on our trip as well. Of course, it turns out 
it is a very modest participation, and it is through a 
competitive grant process.
    I want to just ask you whether or not there is any 
difference in your mind in the work that is supported by the 
Soros Foundation and the National Endowment for Democracy or 
the International Republican Institute, those agencies that are 
doing work on governance, judicial reform, rule of law, 
strengthening civil society. Is there any difference?
    Mr. Yee. Is there any difference? Sorry, sir. Is there any 
difference between the approach before in the last 
administration----
    Mr. Cicilline. So, the work that is being done by the Soros 
Foundation in those areas, aren't those the same kinds of 
things that are happening with the National Endowment for 
Democracy and the Republican Institute?
    Mr. Yee. Yes. Yes, thank you for that question. Yes, 
absolutely. The type of work that we support, the U.S. 
Government supports or the European Union is supporting through 
implementing partners which are selected according to open and 
transparent criteria, includes a wide range of organizations, 
including those that you mentioned, sir.
    The Soros Institute, Open Society Institute, actually makes 
up a very small percentage of the assistance programs that are 
supported by the U.S. Government and also by the European 
Union, as far as I know. The types of criteria that the 
nongovernmental organizations, including the Open Society, need 
to meet are consistent across the board throughout the Balkans.
    Mr. Cicilline. Thank you, Mr. Secretary.
    Also, would you just tell us a little bit about what your 
assessment is? There have been proposals of very substantial 
cuts to foreign assistance to the Balkans and how that might 
impact the U.S.-Balkan relationships, and what are the both 
short-term and long-term national security interests of the 
United States, if the level of cuts that have been proposed by 
this administration, what the impact would be?
    Mr. Yee. Thank you for the question, sir. The State 
Department is confident that it will be able to carry out the 
foreign policy priorities set by this administration within the 
budget blueprint that has been put forward by the 
administration.
    Mr. Cicilline. With a 37-percent cut in foreign assistance?
    Mr. Yee. We will, as always, sir, make the absolute best--
--
    Mr. Cicilline. Well, I guess the question isn't whether you 
make the best. Will it have an adverse impact on the work we 
are doing in the region, the partnerships that we are building 
with these governments to promote transparency, rule of law, 
judicial reform, good governance, and to combat the growth of 
extremism? Because if it is not having any impact on it, we 
maybe shouldn't spend any money there. I mean, that is clearly 
not the case. So, are you saying that a proposed reduction of 
37 percent will not have an adverse impact on the work we are 
doing and the long-term national security interest of the 
United States?
    Mr. Yee. Well, sir, I will make two points on that. First, 
of course, there is an impact. If we spend less or we spend 
more, there is an impact, because our implementation of 
programs based on U.S. assistance we do believe has an impact. 
So, there will be.
    But the question on whether----
    Mr. Cicilline. And it will be a negative impact? When there 
is a nearly 40-percent cut, that would not advance the national 
security interest of the United States, in your opinion?
    Mr. Yee. Well, sir, I would say we would have to see what 
the impact is going to be, based on our prioritization and our 
focus that will be a necessity after we receive the budget from 
the Congress.
    Mr. Cicilline. But you are not suggesting we are going to 
have greater influence and be a better partner in the region if 
we spend 40-percent less resources devoted to the work?
    Mr. Yee. Well, sir, I would make this point: That U.S. 
leadership and the impact of American diplomacy is, of course, 
reliant in great part on our assistance, but it is by no means 
the only means in which we have an influence on the region. 
Much of what we are doing today in places like Macedonia and 
Albania is not dependent on the amount of dollars that we put 
into our programs. So, again, we, of course, consider these 
programs to be very helpful.
    What is important is that these countries, the populations, 
the citizens, the parties understand that the U.S. is 
committed, is willing to demonstrate the leadership necessary 
in order to help them solve problems, some of which, of course, 
do require resources, but some require leadership and a 
willingness to stand up to authoritarian leaders, corrupt 
leaders, organized crime, narcotics traffickers. Many of these 
efforts depend on U.S. leadership.
    Mr. Cicilline. And resources?
    Mr. Yee. And resources.
    Mr. Cicilline. Okay. But I just want to conclude, Mr. 
Chairman, by welcoming Ambassador Faber who is here, who I had 
the pleasure of meeting in Albania, and I want to welcome her 
to the hearing room.
    And I will yield back.
    Mr. Rohrabacher. At the request of Mr. Meeks, we will have 
a second round.
    Let me just ask right off the bat here, what you are 
describing is, of course, that the United States is deeply 
involved. When you have a democratic election in countries like 
this, does that mean that we are trying to superimpose what we 
believe would be the best government in a democratic process? 
Are we telling people that their democratic process is 
important, but here is what you should be doing because that is 
our opinion? Isn't that what these Soros operations are all 
about?
    Mr. Yee. Thank you, Mr. Chairman, for that question. We are 
absolutely not imposing our will or our preferences for one 
party or one policy.
    Mr. Rohrabacher. But we are interfering, are we not?
    Mr. Yee. I would not----
    Mr. Rohrabacher. You wouldn't say that giving money that 
goes into helping one party organize this group of people or 
that group of people, even though it is not on election day, 
that that is not interfering with them?
    Mr. Yee. I would say it is not, sir. It is not going, all 
the assistance does not go to one party or one group of 
citizens. It is distributed in a way that is nonpartisan, that 
is supportive of civil society or other sectors of society.
    Mr. Rohrabacher. Well, if nonpartisan is an idea that one 
party believes in a set of ideas and it just happens to be that 
we are helping those ideas, promoting those concepts through 
whatever nonprofits that we have there, then that isn't 
considered helping the party that is advocating exactly those 
things and hurting the party that is advocating in another 
direction? That seems to be interference.
    In Macedonia, we have some pictures up here, and I will 
find out exactly what they are about. But a majority was 
elected in Macedonia, and the reports that we have are that our 
Ambassador actually encouraged a situation in which the 
Macedonian Government, rather than having it the majority, the 
party that won the majority take over, we have been encouraging 
obstructionism and some kind of coalitions to try to make sure 
that the party that won didn't actually take power. Is that an 
accurate assessment?
    Mr. Yee. Mr. Chairman, thank you for the question. No, it 
is not an accurate description.
    Mr. Rohrabacher. Okay.
    Mr. Yee. Actually, quite the opposite took place. Let me 
begin with the first part, just to make clear on interference. 
There is no question that the United States is assertive in 
defending U.S. interests we believe should be accepted by 
countries that want to be partners with us. And this is 
important to mention, that Macedonia wants to join NATO. 
Macedonia wants to join the European Union, and Albania also 
wants to join the European Union.
    We, as partners, are trying to help them meet the standards 
necessary to achieve that goal. So, when, for example, we 
advocate for rule of law, when we advocate for judicial 
independence, when we advocate for human rights, it is not 
always popular to the government in power. But we believe, as 
partners and as potential allies, it is important to make clear 
and to help them implement reforms that will advance what we 
believe is a shared interest. But, if the government does not 
want to support rule of law, does not want to support human 
rights, it is their sovereign right to do so. It is still our 
obligation to make clear what our priorities are.
    Mr. Rohrabacher. As long as the government is 
representative of an election process, they are the real 
government, whoever.
    Mr. Yee. Absolutely.
    Mr. Rohrabacher. We believe the majority of people will 
decide who is the government. And if we are there undermining 
that, for whatever reason, we want the government to go the 
opposite direction, we are interfering with people's right to 
choose their government.
    And we have Mr. Meeks who is very concerned about any 
influence the Russians might have. Okay. They have their 
national interests; we have our national interests. But perhaps 
it is better for us. I mean, the result that I see in 
Macedonia. I used some not totally accurate words when someone 
asked me about it that got quoted all over the world. But they 
don't have, and I shouldn't have said a country, they don't 
have a government. And they don't have a government because 
there has been people there from the outside, I believe, who 
are convincing people not to either respect the majority or, 
No. 2, not to make the compromises that are necessary for 
democratic government to work.
    And if we are down there watching out for our interests, 
and we have decided that that is tied to social goals that may 
or may not be what the people there believe in, we are 
interfering with that system to the point that it is totally 
broken down. And you don't have--correct me if I am wrong--the 
government right now, they still do not have a functioning 
government in Macedonia. Am I wrong?
    Mr. Yee. There is an interim government, sir, to answer 
your question.
    Mr. Rohrabacher. An interim government, right?
    Mr. Yee. Yes.
    Mr. Rohrabacher. Okay.
    Mr. Yee. But, to answer your question, in Macedonia the 
elections did result in a situation in which no one party had a 
majority. And therefore, it was incumbent among the parties to 
form a coalition that would have the majority of seats in 
Parliament, so the government could be formed.
    Mr. Rohrabacher. Was it a majority of the vote or a 
majority of the people elected in the Parliament?
    Mr. Yee. It was proportionally. So, it was essentially the 
same; that the party----
    Mr. Rohrabacher. So, no party won a majority?
    Mr. Yee. No party won a majority. However, there was a 
coalition of members of Parliament that did represent a 
majority that is supposed to receive under normal European 
democratic norms a mandate from the President of the country to 
form a government. And up until today, up until today, the 
President has been withholding that mandate from the majority. 
And we have been advocating very strongly, sir, for the 
President to observe the constitution, observe European 
democratic norms, along with their European partners.
    Mr. Rohrabacher. Okay. So, we have been suggesting that the 
President send that letter and make that recognition? Is that 
it?
    Mr. Yee. That he allow the formation of a government, not 
one party or the other, but to give the mandate to the 
majority. This is the basic democratic principle. And today he 
did that. So, we have advanced beyond the next step out of this 
crisis.
    Mr. Rohrabacher. It seems to me that this has been going on 
for a while now, and it is only a little country. And we do 
have, as you say, a lot of influence in that part of the world. 
Quite frankly, I think that we have screwed it up, and I will 
leave it with that.
    Mr. Meeks?
    Mr. Meeks. I will just say, you know, we always talk about 
the United States being a leader and try to protect and make 
sure that there are human rights. So, we are not trying to 
force a government to do something, but I think that if we see 
human right violations are wrong, we should challenge the 
countries on their human rights. When we see there is not 
freedom of the press, we should challenge the government on 
whether or not there is freedom of the press. When we see that 
there is corruption, we should challenge the government on 
those corrupt issues, and not just look away and say that is 
the will of the people. Because, clearly, when you have certain 
leaders, the will of the people is not heard because of the 
will of the leader and they prevent the people when you 
suppress freedom of the press, when you suppress humanitarian 
rights, when you use certain tactics. And I think that that is 
still a very good role for the United States of America to 
play.
    The fact of the matter is we talk about Russian influence. 
You know, I want to challenge them. I think that the President 
of the United States, when he had the Foreign Minister in the 
White House, as opposed to talking about secrets that we had, 
he should have been questioning Russia on human rights, on 
freedom of the press, on various things. And we shouldn't want 
to be like them. I think that we set the standard, and we 
should be the ones that are moving forward in that regard.
    A couple of quick questions. You said in your testimony 
that of secession rhetoric in Bosnia, you said it was being 
leveraged by the Kremlin. How so?
    Mr. Yee. Thank you, Mr. Meeks, for that question. In 
Bosnia-Herzegovina, particularly in the Republic Srpska, there 
is a strong interest and efforts by Russia to maintain and 
increase its influence with the Government of the Republic 
Srpska, both through financial means and also political means.
    Where we have seen the malign influence in Russia, in 
particular, has been in encouraging, words of encouragement, 
what we are aware of in public at least, and we can only 
imagine in private, encouragement by the Russian Federation of 
the secessionist plans and movement by certain politicians to 
break away from Bosnia-Herzegovina, which would be in violation 
of the Dayton Accords, which we believe would be tremendously 
destabilizing and would undo many years of hard work in 
stabilizing Bosnia-Herzegovina and bringing it toward the 
European Union and, if it decides, to NATO as well.
    So, our efforts in the Republic Srpska and Bosnia in 
general are to strengthen institutions, which will make it more 
difficult for Russia or other external factors who wish to 
maintain a malign influence, including by strengthening rule of 
law, by strengthening the free media, and strengthening the 
judiciary, independence of the judiciary, so they are not 
able----
    Mr. Meeks. Let me ask another question. And I don't know, 
maybe they are doing good things. Maybe they are checking human 
rights, et cetera. But, back in 2012, the Russians and the 
Serbian Government established the Russian-Serbian Humanitarian 
Center, I think it was in Nis. And that was founded in order to 
provide humanitarian emergency response in Serbia and other 
Balkan states.
    How do you assess that arrangement and the activities that 
are going or working with the Russian-Serbian Humanitarian 
Center in Serbia?
    Mr. Yee. Thank you for that question, Mr. Meeks. We believe 
it is very important to be vigilant in general about all 
Russian moves in the region, since we have seen recent moves by 
Russia which are undermining the interests of the countries in 
the Western Balkans and, also, of the United States, we 
believe, most recently and most dramatically, in Montenegro, 
where the Russian Government attempted to undermine the 
elections and the government itself in Montenegro.
    It is very important to be vigilant. I think we have some 
questions about why Russia is trying to set up a ``humanitarian 
center'' in Nis and why it is seeking special status for this 
facility. We don't believe the intentions are pure. And so, we 
are advising Serbia to ask the hard questions, to ask Serbia 
why it needs this facility and why it needs to have a special 
status, and what it is going to do that it can't already do 
from Belgrade or from existing facilities.
    Mr. Meeks. Let me make one last question. Well, actually, 
it is a statement, but you might want to answer it. It is 
piggybacking off of Mr. Cicilline. Because you spent much of 
your testimony on incentives driving countries in the region 
toward better behavior. But now, if we have these severe budget 
cuts, aren't you going to gut the very incentives which could 
help countries move forward? Because a lot of the incentives, 
you know, it takes personnel. Personnel cost money as well as 
other things. And you won't be able to maintain with a 40-
percent cut personnel as well as other areas. And so, 
therefore, a lot of the incentives that we have been giving 
out, with a 40-percent budget cut, where even a general said 
that, if you cut the State Department, we are going to just 
spend the same money in bullets, but isn't that contrary? 
Wouldn't we be losing out on those incentives to move forward?
    Mr. Yee. Thank you, Mr. Ranking Member. There is no doubt, 
as Mr. Cicilline also made clear, that the resources that are 
used in providing assistance to countries of the Western 
Balkans is important and has had a positive impact. And whether 
we spend more or less, there will be an impact.
    The point I want to make in terms of the incentives for the 
region is that the assistance, in terms of the financial 
assistance in particular, is not the most important driver. The 
most important drivers are the types of reforms these countries 
need to make. It is the help, political help especially, these 
countries need to make these reforms.
    So, for example, a lot of the countries in the region 
actually are led by people who do not want to see the country 
join the European Union or to move forward, because they are 
invested in the status quo, invested in systems that allow them 
to exploit state-run enterprises, to maintain control over all 
the instruments of power in their countries.
    So, it is somewhat of a paradoxical situation in which we 
are trying to convince the governments, which tell us that they 
want to join the European Union, that they need to make 
substantial changes in their political system, in the way of 
doing business. And these, of course, do--these processes, 
these reforms are assisted by our programs. But the most vital 
element is the political will necessary by the leaders in these 
countries to move forward to make these changes.
    Mr. Meeks. I am out of time. I just want to thank you again 
for your service. I always think that those who work for the 
State Department are underappreciated. I think that the budget 
proposal to the State Department shows that underappreciation. 
And I know you have got to stand there and take the grate here, 
but it has not gone unnoticed about the service that the men 
and women of the State Department do on an everyday basis. When 
we travel and we go see what is happening on the ground, and we 
see how you serve our country, you know, I salute every person 
that is in the military, but I also salute every person that is 
in the State Department because I see members of the State 
Department putting their lives on the line.
    And just as we need to increase, and they are looking at 
ways to increase the defense budget to some degree, we need to 
make sure that we do the same thing with our State Department, 
at the very least maintain it, because your job and your work 
is something that is of tremendous service to the United States 
of America, and I thank you for it.
    Mr. Rohrabacher. Thank you, Mr. Meeks.
    And now, Mr. Cicilline?
    Mr. Cicilline. Thank you, Mr. Chairman.
    I want to begin just to respond a little bit to the 
chairman's suggestion that our foreign policy should be 
indifferent to values, that there is something wrong with 
supporting an effort in a country where there is a particular 
party that is supporting one set of ideas versus another.
    Because if you imagine that there were one political party 
that was supporting free press, judicial integrity, good 
governments, the respect for human rights, free and fair 
elections, and there was another entity that was supporting 
repression of human rights, judicial corruption, corruption in 
the election system, violation of human rights, our foreign 
policy ought to reflect our values as a country. We are not 
indifferent to those things. We have to a conclusion as a 
country that we will promote peace and stability around the 
world and the long-term national security interest of the 
United States by encouraging things like respect for human 
rights, honest elections, good governance, judicial integrity, 
free press.
    And the notion that we sort of should be indifferent to 
that would mean we wouldn't have any foreign policy that 
reflected our values as a country. And so, I think in the 
Balkans it is particularly important to reject the notion that 
it doesn't matter which of those values are being reflected, 
because it does matter.
    And I think on the issue of Macedonia, I heard from our 
Ambassador directly about the efforts to encourage the 
constitutional application of the mandate and the forming of a 
government. I am delighted that happened today.
    But that is exactly the role the United States should play: 
Respect for rule of law, respect for fair elections, and to 
support the governments and the countries that are doing that 
work. So, I think it is important to push back on this notion 
of indifference in our foreign policy. I think it is exactly, 
sadly, what we have heard from the Secretary of State a little 
bit, and I think it is a very dangerous direction. So, I am 
happy to hear that you understand the importance of that.
    One thing that we heard from everyone that we met with in 
the Balkans was how important EU accession and NATO membership 
was. And I just want to hear from you, Mr. Secretary, about how 
you think those objectives play in the kind of long-term 
national security interests of the United States, the deep 
interest in all of the Balkan countries to be part of the EU 
and to be part of NATO.
    Mr. Yee. Thank you, Mr. Cicilline, for those remarks and 
also the question. Fortunately, the Western Balkans still 
believe very strongly in American leadership; still believe 
very strongly in the importance and value of joining the 
European Union and joining NATO.
    The facts speak for themselves, that countries that are in 
NATO, in the European Union, are more prosperous. They are more 
stable. They have better futures for their young people. And 
so, it continues to be a draw.
    And as Chairman Rohrabacher mentioned, as the prospect for 
joining those institutions weakens, the motivating force we 
have in part weakens. So, we need to continue, I think, to keep 
these processes moving forward, both so we can encourage the 
European Union to continue the European Project, but also to 
keep NATO's open door open. That has been tremendously 
important in helping Montenegro, Albania, and Croatia motivate 
themselves and their populations to take some difficult reform 
steps.
    And if I could just make one short comment on the issue of 
values, the Secretary of State, Vice President Pence, and 
Secretary Mattis have all made clear to their staffs that 
values do matter; that human dignity, respect for human rights, 
for justice, rule of law, and democracy are all the important 
ingredients that bind us and Europe together. So, I think there 
is high-level support, although it may not have been 
articulated directly with respect to the Balkans. I believe 
that our leadership has made clear that the values do matter 
and that we should be fighting for them.
    Mr. Cicilline. And my last question, Mr. Secretary, is, if 
the United States were to pull back in a significant way from 
our engagement in the Balkans, do you believe that we would see 
a greater likelihood of this spread of extremism and a rise in 
terrorism and, if so, in which countries do you think the risk 
is greatest?
    Mr. Yee. I believe it is--thank you for the question, sir--
I believe it is a risk if the West turns its back, or appears 
to be turning its back, on the Western Balkans. They will, the 
countries of the Western Balkans will look for other options. 
They will look to either Russia or China or other powers that 
are providing alternatives to the first option, which is the 
West for most of these countries.
    So, I think it is absolutely crucial that we continue to 
help them make the reforms needed, including the areas you 
mentioned of fighting extremism, of providing jobs for young 
people who otherwise will turn to less appropriate uses of 
their time and energies. If we don't do this, then I think we 
can fear that things will deteriorate, not only with respect to 
violence and extremism and terrorism, but with regards to the 
economy, which, if not improved, will lead to mass migration 
outside of the region into Europe, but also to the United 
States. And if brain drain increases in that region, the 
problems of these countries will only get worse.
    Mr. Cicilline. Thank you, Mr. Secretary.
    And, Mr. Chairman, I would just ask to associate myself 
with the remarks of Mr. Meeks with respect to our men and women 
in the Foreign Service. I am always in awe of the tremendous 
service of the men and women who serve our country all over the 
world, sometimes in very dangerous places. And this was no 
exception on my trip to the Balkans. We have extraordinary 
professionals that have dedicated their lives to representing 
our country and the interests of the United States, and they do 
it with tremendous dedication and make us all very proud, and 
that includes you. So, thank you for your service. And we will 
do all we can to protect resources for the important work that 
you do.
    With that, I yield back.
    Mr. Rohrabacher. I would like to now welcome the ranking 
member of the full committee, Mr. Engel, who has had decades' 
long interest in this region. I know because we came in 
together and we are both very active since day one, and a man 
who I deeply respect. And I am very happy that he stopped in 
and joined us at this hearing today.
    You are recognized, Mr. Engel.
    Mr. Engel. Thank you very much, Mr. Chairman, and thank you 
for those kind words. We have worked together for a long, long 
time.
    Before I begin, I want to acknowledge the Ambassador of 
Albania to the United States, my friend Floreta Faber. She is 
here. I want to recognize her and thank her for coming.
    Of course, I want to welcome Deputy Assistant Secretary 
Hoyt Yee who works so hard and so long. Hoyt, it is always good 
to see you, and I am grateful for working so closely with you 
through the years. And thank you for your service. I agree with 
Mr. Cicilline about how we are in awe of people in the Foreign 
Service that work so hard on what I consider a shoestring and 
do such wonderful work.
    So, if we take away a message, one message, from today's 
hearing, it is that our work in the Balkans is not over. The 
project that began in the 1990s with the breakup of the former 
Yugoslavia still requires active engagement by the United 
States and by our allies in Europe.
    First, the good news: There has been real progress in the 
Balkans. Two countries, Slovenia and Croatia, have joined the 
EU. Three, Slovenia, Croatia, and Albania, have entered NATO, 
and a fourth, Montenegro, is on the way. That is good.
    Since the brutal wars of the 1990s, peace and democracy 
have, indeed, been the norm in the region, but all is not well. 
The democracies established with each country's independence 
are now fraying on the edges. Press freedoms are narrowing in 
Serbia. Macedonia has not yet been able to form a government, 
although today I hear there is real progress. And Albania's 
opposition Democratic Party is refusing to take part in next 
month's parliamentary vote. Kosovo's elections next month, 
spurred by a parliamentary no-confidence motion, seem 
relatively normal in comparison. But Kosovo's troubles remain 
right around the corner, as Serbia remains unwilling to 
normalize relations and recognize its neighbor, Kosovo.
    On top of the regional concerns, Vladimir Putin has added 
Balkan countries to the list of targets with his contention and 
undermining confidence in democracy. The Kremlin attempted a 
coup in Montenegro which, fortunately, failed. It is selling 
advanced weapons to Serbia, including MiG-29s and T-72 tanks. 
And it is getting involved in Macedonia's domestic politics, 
aiming to prevent the resolution to the governing crisis in 
Skopje.
    So, Hoyt, I am glad you are here to help us understand what 
is going on and what the United States is doing to get the 
region moving forward again.
    I would like to make a few points. First, President Trump's 
State Department and foreign assistance budgets will devastate 
America's ability to promote our interests and protect our 
security. This is as true in the Balkans as it is anywhere 
else. Since the wars of the 1990s, we have invested billions in 
the Balkans, and we have made progress. It would be foolhardy 
at best to squander that investment simply to further an 
ideological drive to make deep cuts throughout the government.
    Secondly, I was taken aback at the initial United States 
opposition to Kosovo's plans to form an army. If our 
recognition of Kosovo as a sovereign and independent democracy 
means anything, it means we must stand by Pristina when it 
pursues policies well within the bounds of what is accepted for 
any other normal country. And saying Kosovo's development of a 
military should take place gradually just doesn't cut it 
anymore. Kosovo is in its tenth year of independence. We are 
past gradual; we are now approaching glacial. Rather, let's 
help the Kosovars consult with their domestic constituencies, 
their neighbors, and the international community, so that can 
formally establish their nonthreatening defensive force.
    Once again, Mr. Chairman, our work is not done in the 
Balkans, as you well know. We need to keep the region on the 
path toward democracy and the rule of law. We need to continue 
to integrate the countries in the North American community, and 
we need to ensure that Europe's soft underbelly does not become 
a low-hanging fruit ripe for Putin's picking.
    This means that the United States must step up our 
engagement in the region and support each nation as it 
continues its path forward. Anything less will risk bringing 
further instability and difficulties back to a region that 
deserves a real chance of freedom and prosperity.
    So, I guess I will just ask you to comment on anything I 
said or might say. And I also want to ask you about the name of 
Macedonia with Greece, so problems there. Have there been any 
changes of authority in terms of the name for Macedonia?
    Mr. Yee. Thank you, Mr. Ranking Member, for your statement 
and your questions. I agree largely with everything you have 
said, sir, with one possible clarification I wanted to make 
about Kosovo and its military. We do, in fact, support Kosovo's 
aspirations to create an army. We have agreed with Kosovo since 
2011 on a strategy, the security sector strategy review that 
includes a number of steps that Kosovo will undertake before it 
transforms its security force into an army. That strategy 
includes having onboard all the parties in the country and the 
government also, including the minority Serbs.
    The Kosovars have agreed that, for reasons of stability, it 
would be much better to have all of the different peoples in 
the country supportive of this step before it happens. So, what 
we are asking for is for Kosovo to follow the strategy that we 
have laid out and agreed together, that Kosovo honors its 
commitments to its partners because, after all, Kosovo, while 
it is a sovereign country, also has the presence of a NATO-led 
peacekeeping force, KFOR, which expects Kosovo to meet its 
commitments.
    So, in other words, if Kosovo is going to take any step 
that will possibly affect the conditions for the NATO-led 
peacekeeping force or for security in general, these steps need 
to be coordinated in advance. And when we did make clear to the 
Kosovars that we thought they needed to return the strategy was 
when it appeared a couple of months ago that Kosovo was going 
to proceed with the formation of an army outside of the 
framework of the agreement that it had agreed with us and with 
other NATO partners.
    So, we do support formation of an army, but it should be in 
accordance with the strategy that we have already agreed with 
them, and it should be done in a way that does not upset the 
security situation, which might lead to a weakening of support 
from NATO allies for the Kosovo security force, the KFOR, the 
peacekeeping force led by NATO.
    And, in general, on Russia, I just want to add again what I 
mentioned earlier, sir; that we believe it is very important to 
stand up to Russian malign influence and we are engaged in many 
different efforts to strengthen the ability of all the 
countries in the Western Balkans to resist illegal or ill-
intended efforts by Russia to increase its influence, including 
in Kosovo, including in Albania, in places which have 
traditionally been, more or less, thought to be immune from 
this kind of influence. And now, we are beginning to see where 
it could, in fact, be coming into play.
    Mr. Engel. Thank you.
    Mr. Chairman, if you would just indulge me, I would like to 
ask one more question, and say that I am deeply concerned with 
the lack of justice for murders and crimes committed by the 
Government of Serbia during and after the Kosovo war. There 
have been no charges brought against anyone for the murders of 
the three American citizens, the Bytyqi brothers, despite 
widespread understanding of who was behind them.
    On January 31st of this year, the respected Humanitarian 
Law Center of Belgrade released a dossier called ``The Cover-up 
of Evidence of Crimes During the War in Kosovo: The Concealment 
of Bodies Operation.'' This report described mass graves in 
Serbia containing the bodies of 941 Kosovo Albanians, mainly 
civilians killed outside combat situations in Kosovo during 
1999.
    According to the report, ``The evidence corroborated the 
decision to conceal evidence of crimes committed was planned as 
early as March 1999 at the highest level of the Serbian 
Government.'' And on top of this, Belgrade has not brought to 
justice those responsible for attacking and setting fire to the 
U.S. Embassy in 2008. I want to know when Belgrade will face 
facts and bring to justice the people, including high officials 
in its government, who are behind these very serious crimes. 
The murder and mass burial of almost 1,000 incident civilians 
is a crime against humanity, but the perpetrators have since 
gone unpunished.
    At the same time, the European Union has looked the other 
way and has been willing to proceed with Serbia's accession 
process. This has to stop and stop now. Until Serbia brings 
those who have committed these crimes to justice, the EU should 
not move ahead with Belgrade's accession and the United States 
should think twice before advancing our relations with Serbia.
    I also think that Serbia should stop throwing roadblocks in 
Kosovo's way and Kosovo's attempt to join the European Union. 
If both of them are to join the European Union--and I have no 
objection to that ultimately--then I think that each should 
help the other join the Union, not resist and make it almost 
impossible by throwing up roadblocks.
    So, I would like, Mr. Chairman, to ask unanimous consent to 
put in the record HLC's one-page summary of the dossier I just 
mentioned.
    And I thank you for your indulgence.
    Mr. Rohrabacher. Thank you, and thank you very much for 
your years of services on this issue and your focus all of 
these years. And I don't think it is due to the fact that you 
have massive numbers of Serbian or Kosovar residents in your 
district. I have got to feel it is just from your heart and 
representing a truly principled position, which I may disagree 
with certain things about.
    Mr. Engel. Well, we have disagreed on a number of things, 
Mr. Chairman, through the years, but I think mostly we have 
agreed.
    Mr. Rohrabacher. Okay. Let me just note that my positions 
were mentioned in several testimonies. And as a matter of 
courtesy, I will yield myself some time to respond.
    First of all, and again, I would hope, and what my 
disagreement with Eliot is, that we close the books on that war 
and Serbia starts cooperating with Kosovo. And bringing up who 
killed who 35 years ago or 30 years ago is going to harmful to 
bringing about that cooperation. So, I would recommend both 
sides just drop it, close the book, realize bad things were 
done, and try to form a better relationship.
    In terms of our influence, let me note that several times 
what we have heard here today is how we must be concerned about 
Russia's, we have to stand up to Russia's trying to increase 
its influence. What is that all about? I mean, this is Russia 
phobiaism, Russia phobia. They are no longer the Soviet Union. 
They are a major power. They have every right to try to expand 
their influence by influencing people in various parts of the 
world, as we do, and we are all over the map in these things, 
and we have our military all over the world trying to do that 
through the military even.
    And, yes, Russia has every right to try to become an 
influential force, especially on countries that border Russia. 
What is going on? I mean, we went up to the Baltics, and after 
hearing the words ``Russian military aggression'' in the 
Baltics over and over and over again for a year, I went up 
there and we had a hearing. And there was no Russian military 
aggression in the Baltics. I mean, not once have their troops 
gone into one of these countries.
    And, yes, we actually put more troops on their borders than 
they actually put inside their own country next to these 
countries. So, again, I think this idea that we are now 
treating Russia the same way we did during the Soviet Union is 
harmful to peace and undermines our ability to get things done 
and promote peace in the world.
    One last thing about this whole thing about Macedonia and 
Soros and these other things. Here is where we disagree. No, if 
a country decides they have political parties based on their 
social norms, whether it is--yes, they have a right to have a 
political party and say, ``No, we are not going to,'' and I'm 
not stepping on, trying to attack anybody here or anything. 
Just we have a right to determine what we consider to be 
acceptable in our national parade. Okay?
    And I know we have had problems with that. What I see is 
that you have Christian groups in these countries. Soros and 
his gang don't like the Christian groups. They don't like 
family groups, people who have more traditional, conservative 
principles. And I am not saying those principles are right. I 
am just saying the people of these various countries have the 
right to do that without interference from us, without us 
shipping in money to try to help them organize politically to 
get the guys who are on the other side of those social norms.
    And finally, let me just say that, when we are talking 
about what really is the motive going on here, who is seeking 
influence about what, Mr. Secretary or Deputy Secretary, what 
we are going to call you today, my read of this is that what we 
have here is the same sort of thing that we have seen with the 
EU elsewhere, like what they did in Ukraine. It is a power grab 
by suggesting any country who wants to get into the EU has to 
do this, has to jump through hoops.
    The attempt at control isn't Russia. The attempt at control 
is that we are backing up the EU's demand for control in this 
part of the world. And that is what their goal is. And 
unfortunately for these folks, I would say that the EU is not 
proving to be as viable as it presents itself. I think the EU 
is going down, and instead, it is using its leverage based on 
us to try to get these new governments down in the Balkans, to 
get them to toe the line, the line that they create for that 
European market as they see it.
    This is German bankers, basically, telling the Balkans what 
to do. And I am sorry, I see that far differently than the 
Russians--as far more of a detriment to freedom than I do that 
the Russians are trying to gain influence on this or that 
legislature or this or that leader in that part of the world.
    However, I will, as a courtesy, give you 1 minute to refute 
it. And then, we are going to our next one.
    Mr. Cicilline. I just was going to ask unanimous consent 
that Secretary Yee may have an opportunity to respond, so that 
it is clear to anyone who is watching that what you have just 
articulated is not the policy of the United States.
    Mr. Rohrabacher. You've got it. You've got it. [Laughter.]
    Mr. Cicilline. So, maybe Secretary Yee could clarify that.
    I think it is important. I have traveled with the chairman, 
and we have had this lively discussion before. But I think, 
since we have an administration official here, responding to 
the administration's view of that would be useful.
    Mr. Rohrabacher. You know, I learned this about Macedonia, 
too. You don't want anyone to determine that they think you are 
talking for the United States Government. I am not even talking 
for our new President.
    Mr. Cicilline. Well, nor originally the members present 
today. [Laughter.]
    Mr. Rohrabacher. All right. Mr. Secretary?
    Mr. Yee. Thanks, Mr. Chairman. Thank you, Mr. Cicilline, 
too.
    Very briefly, I just want to say I agree with the chairman 
that sovereign countries should have the right to decide. And 
this is perhaps where we disagree, sir; that it is an 
assessment of the United States Government that countries like 
Macedonia and Albania and Bosnia-Herzegovina, and other members 
of the Western Balkans, want to join the European Union, want 
to join the West. They want to join NATO.
    Mr. Rohrabacher. Yes.
    Mr. Yee. In order to do that, there are certain standards 
they need to meet: Rule of law, respect for human rights, 
respect for a free media, freedom of the speech.
    Mr. Rohrabacher. How about economic policies? They also 
demand?
    Mr. Yee. Also, economic, certain economic standards.
    So, what we are doing is helping them to achieve their 
goal. We are not telling them that they must join NATO or they 
must join the European Union, but they must meet certain 
standards if they do want to advance.
    Russia is fundamentally against what these countries are 
trying to do. That is the difference. We are trying to help 
these countries join the West. Russia is trying to hold them 
back.
    Mr. Rohrabacher. Okay. Thank you. And thank you, Mr. 
Secretary. We appreciate you coming here.
    And let me just note that we will be having a codel to the 
Balkans this summer. And we are all invited to go, and we hope 
maybe even to see you there, or at least get a briefing before 
we go. And we are going.
    So, we are watching this situation very closely. And it 
seems to me that what we had for so long, over the years all we 
have heard is, ``the Baltics,'' ``the Baltics,'' again, the 
military aggression in the Baltics. And we didn't hear anything 
about the Balkans. And the Baltics, as we find out, in terms of 
Russia, it is a locked door. They are not going through the 
Baltics. But the Balkans seem to be a broken door. And 
whichever way people are going to go in and out right now, it 
will be determined by what we do as a nation and what we can do 
to help those people there have a more efficient, effective, 
and free government.
    Thank you very much, Mr. Secretary.
    We will now call on the second panel.
    [Recess.]
    Mr. Rohrabacher. The hearing is called to order.
    We are grateful that we have a fine panel of witnesses. I 
would ask the witnesses, if they could, to provide 5 minutes' 
worth of oral testimony. Anything you want to put in the record 
will be put into the record. But 5 minutes, and that will give 
our panel, our committee members here, a chance to go into a 
dialog about the points that you have made in your 5-minute 
remarks.
    So, first, I will introduce all of them, and they will 
start with Mr. Bardos after that.
    Gordon Bardos is president of the South-east European 
Research and Consulting. It is a political risk analysis firm 
specializing in Southeastern Europe. He previously served as 
director for the Association for the Study of Nationalities and 
as a linguist for NATO-led stabilization forces in Bosnia-
Herzegovina.
    Joseph DioGuardi, no? I should know that after all our 
years. I have been mispronouncing it every time I have seen him 
for the last 30 years. A former Member of Congress, a member of 
this committee, and while in office and later as a prominent 
Albanian-American leader, he has worked tirelessly to focus the 
attention of the American Government on the Balkans. He is 
responsible for helping bring about the first congressional 
hearing on Kosovo in 1987. Today he is president of the 
Albanian American Civic League.
    And finally, Mr. Daniel Serwer, who is an academic director 
of conflict management at Johns Hopkins School of Advanced 
International Studies. He is also a scholar in the Middle East 
Institute. Previously, he was a minister/counselor at the 
Department of State, serving as U.S. Special Envoy and 
Coordinator for the Bosnian Federation.
    So, we have some people who have got experience on the 
ground and a great deal of knowledge to share. And we 
appreciate you joining us.
    Dr. Bardos, you may proceed.

  STATEMENT OF GORDON N. BARDOS, PH.D., PRESIDENT, SOUTH EAST 
                EUROPEAN RESEARCH AND CONSULTING

    Mr. Bardos. Mr. Chairman and members of the subcommittee, 
thank you for inviting me to share some thoughts with you on 
the current situation in Southeastern Europe. I will focus my 
remarks on four issues: The current crisis of Balkan 
democracies, the dangers inherent in opening a Balkan front in 
the new Cold War, the need to improve the economies of the 
Balkan states, and the challenge of confronting Islamist 
terrorist groups in Southeastern Europe.
    Just in the 2 weeks since this hearing was scheduled, two 
Balkan Governments have essentially fallen. And overall, as one 
European diplomat has noted, two states in the Western Balkans 
are on the verge of disintegration and three are in deep 
political crisis.
    International democracy monitoring organizations such as 
Freedom House and the Economist Intelligence Unit's Democracy 
Index, all agree that democratization in the region has either 
stalled or backslided over the past 10 years.
    I was going to do a glance around the region, but I think 
Secretary Yee already did that. So, there is no need for that. 
I will concentrate on something else.
    In the midst of all of these troubles, most people's 
attention is focused on what Russia is doing in the Balkans. I 
want to argue that this obsession with Russia and the Balkans 
is as misguided and potentially as detrimental as the 
discussion about WMDs in Iraq was, because turning the Balkans 
into another front in the new Cold War will sacrifice democracy 
in the region for yet another generation.
    By almost any measure, military, diplomatic, and economic, 
the U.S. and the EU have achieved dominant positions in 
Southeastern Europe. To give just two examples, and more 
provided in my written testimony, every country in Southeastern 
Europe is currently a member of NATO or a member of the 
Partnership for Peace Program. Russia currently has formalized 
military alliances with none of the countries in the region.
    In 2015, Serbia conducted two military exercises with 
Russia. In the same year, Serbia conducted 22 military 
exercises with NATO.
    To sum up my argument, I would use a sports analogy. In the 
game with the Russians in the Balkans we are leading by 78 to 
13. Some people think we need to keep on running up the score. 
I would argue that it would be better for us to call this game 
and start preparing for the challenges posed by next week's 
opponent.
    Viewed in this context, the challenge presented by next 
week's opponent is going to be stabilizing and strengthening 
the Balkans' failing democratic institutions and resuscitating 
the region's stagnant economies. To put the economic situation 
in the Balkans in some perspective, the states in the region 
have gone through an economic depression that has lasted far 
longer and cut far deeper than anything the United States 
experienced in the 1920s.
    In 2015, Serbia's GDP was still 25 percent below what it 
was in 1989. According to the World Bank, Bosnia currently has 
the highest youth unemployment rate in the world. And, of 
course, the Greek debt crisis is still far from over. 
Unfortunately, promoting the Balkans' democratic and economic 
development will be impossible if the region becomes yet 
another front in the new Cold War.
    Finally, we need to address a serious problem in the region 
that I believe is getting insufficient attention, the growth 
and spread of Islamist extremist movements. Thanks in part to 
the work of Saudi, Qatari, Iranian, and other groups, a 
militant form of Islam has been steadily encroaching on the 
region's traditionally more mild traditions. Albania, Bosnia, 
and Kosovo are estimated to have produced more jihad volunteers 
per capita than any other countries in Europe. The importance 
of the Balkans in the international jihadi movement is also 
evident from the frequency with which a Balkan connection can 
be made to almost every terrorist incident in Europe.
    The Balkans also play an important role in the European 
terrorist threat matrix as a source of armaments. Thanks to the 
Yugoslav Wars of the 1990s and Albania's near meltdown in 1997-
1998, jihadis can obtain practically whatever weapons they 
might want in Southeastern Europe's black market arms bazaars. 
What should be of particular concern is the degree to which 
Balkan militant islamists can or have established ties with 
Southeastern Europe's flourishing organized crime networks, 
which are amply skilled in human trafficking and drug and 
weapons smuggling.
    Indeed, given the current state of the Balkans, it would 
not be difficult to put together all of the elements needed to 
make everyone's nightmare scenario, terrorists acquiring 
nuclear weapons, come true. At least three times over the past 
5 years the FBI has helped to thwart efforts to sell nuclear 
and radioactive material in Moldova. We have been lucky so far, 
but the combination of weapons-grade uranium on the black 
market and apoplectic terror groups with known ambitions to 
acquire nuclear weapons should be a loud wakeup call to 
everyone concerned.
    To deal with all these problems, we need to make several 
adjustments to our policy toward the region. First, we need to 
align our political ambitions and political projects more 
closely to the region's political culture and political 
tradition. Far too often over the past 20 years, we have been 
engaged in political and social experimentation that simply 
will not work in the Balkan environment.
    Second, we need to start entertaining the possibility that 
the stability-versus-democracy tradeoff might be a false 
dichotomy. A strong argument could be made that leaders and 
groups that believe they enjoy Washington's favor or believe 
they know how to manipulate American policymakers will 
increasingly press their advantages against both domestic and 
foreign opponents, resulting in less democracy internally and 
more aggressive policies externally.
    Third, we need to spend less of our diplomatic time and 
energy on micromanaging states and more on organizing a 
coordinated and coherent approach to the region by major powers 
such as Turkey, Russia, and, of course, the EU. Whether we care 
to admit it in the current political atmosphere, each of these 
actors will be needed in promoting stability and peace in the 
Balkans over the coming years.
    Mr. Chairman, thank you again for inviting me to share some 
thoughts with you on the situation in the Balkans, with you and 
the committee. I have discussed all of these matters in more 
detail in my written testimony, and I look forward to your 
questions.
    [The prepared statement of Mr. Bardos follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                              ----------                              

    Mr. Rohrabacher. Well, thank you very much.
    Joe?

   STATEMENT OF THE HONORABLE JOSEPH J. DIOGUARDI, FOUNDING 
  PRESIDENT, ALBANIAN AMERICAN CIVIC LEAGUE (FORMER MEMBER OF 
                           CONGRESS)

    Mr. DioGuardi. Thank you, Mr. Chairman.
    We were here 2 years ago. You had a wonderful hearing, and 
it was mainly on Kosovo and Macedonia.
    And you can see the photo all the way to the--it is being 
blocked by the fellow from Voice of--excuse me. The chair, 
could you move, please?
    There is Mr. Ziadin Sela with you 2 years ago being greeted 
after the hearing up there, surrounding by his family and 
friends from where he was the mayor of Struga. He was 
announcing that he was now going to embark on an impossible 
task of reforming, politically reforming, the state of 
Macedonia.
    Two years later it was Ziadin Sela and his party that was 
able to meet the qualifications of the mandate. And under the 
constitution, as bad as that constitution was, and other 
European law naturally, he had to be given by President Ivanov 
the right to form a government after the ruling party, under 
the strongman Mr. Gruevski, was not able to.
    So, you were right in your comments before. He was able to 
get a coalition of parliamentarians, Slav and Albanian, to be a 
majority and form the government.
    When he was supposed to form the government on September 
27th, look at the result. There he is in a hospital bed. Right 
below you will see his face bloody. He is being pulled out by a 
thug.
    And just to show you how big these Slav thugs that were 
hired by Mr. Gruevski, take a look at this right here, the guy 
with the beard. He is one of them.
    That was the beginning of the melee. What happened on the 
27th was Gruevski's attempt to be sure that there would be no 
reforms, that there would be no new government, because he 
knows how high his crimes are and he is afraid to be prosecuted 
and put in jail. So, he must keep control.
    So, what you heard today is like we heard from Mr. 
Milosevic so many times when we were able to get hearings here. 
The day of the hearing they released prisoners. They did this; 
they did that.
    So, just today, because our Civic League has advertised 
this, has told the world that this hearing was going to be 
really important for Macedonia--and in this room I daresay that 
90 percent of the participants are ethnic Albanians from 
Macedonia whose families are still there suffering. They came 
one from Alaska, many from Chicago, two from Iowa. They are 
here because they wanted to show you their concern, just the 
way the Kosovars did many times when we had those hearings.
    But look at this. Now he is being pulled out here. Look at 
the blood on his face. He was given up for dead. Now the only 
reason he is in that hospital bed is that there was a security 
guard, the only Albanian hired by the Macedonian Government, to 
show you the economic discrimination in this country. That 
Albanian security guard realized that he was not dead; he was 
still breathing. They walked away from him. He took him and put 
him in a room, hid him until the place cleared out. Then, he 
was delivered by an ambulance or an armored car to the 
hospital.
    Ziadin couldn't come here. He wanted to be here, but I was 
naive in thinking he could. He has had so many concussions. If 
you look at the picture, you are not just seeing dry blood; you 
are seeing pummeling, constant fists to the face and to the 
head. They were there to kill him.
    They advertised this weeks and weeks in advance, that this 
man was an enemy of the state. It reminds me of what Milosevic 
called me, an enemy of the state. They called him an enemy of 
the people. This is a signal to UDBA or the security forces to 
eliminate that person, and that is what they tried to do on 
September the 27th.
    They went 2\1/2\ hours. They put the uniformed police 
outside. They only came in after 2\1/2\ hours when they thought 
they had beat up everybody and killed Ziadin, only to find out 
that he was put in the hospital, resuscitated.
    His doctor, Arben Taravari--Arben, stand up for just a 
minute--is right here. He flew in. He is a neurosurgeon. He had 
operations, but for 1 day he said, ``I have to come here and at 
least take Ziadin's place and let people know that this man is 
going to come back to reform the government.''
    So, what do you make of today? This is not going to 
continue. Whatever Ivanov did, it is not going to last. It is 
too dangerous for Gruevski to have a new government.
    You have to remember, Mr. Chairman, 20,000 audiotapes were 
made public by the Slav opposition of Mr. Gruevski, Mr. Zaev, 
whose party now--I think it is LSDM--is in coalition with the 
party of Ziadin Sela.
    He is not going to allow that coalition to go forward 
because he knows everything has been publicized. The only 
answer to Gruevski to those wiretaps was, ``Where did they come 
from, some foreign thing?'' He won't deny them.
    And you can't believe what some of these wiretaps say. And 
also, I mean, what they say are things like, ``Those Albanians 
that we set up in this Monster case.'' And you know what? They 
have long jail sentences. They couldn't adequately defend 
themselves. They were set up. They were not even guilty, but 
now they are in long prison sentences.
    You have Knova when they set up this phony operation and 
called it the Albanians from Kosova coming into military 
action. They were actually hired by Slavs to do that for an 
excuse to go further in their opposition or their repression of 
the Albanian people.
    Where did this all start? You said that the country of 
Yugoslavia disappeared, disintegrated in 1991-1992. Somehow the 
Government of Macedonia slipped in with no opposition as an 
independent state in 1992 with an old-type constitution under 
the former Yugoslavia. And when they formed the state, it 
clearly says this is a state for Macedonian Slavs. They don't 
mention Albanians. They don't mention Bulgarians. And by the 
way, there is no majority in this state. One-third Bulgarian, 
one-third Albanian, and one-third Macedonian Slav. That is the 
kind of state it is.
    But the Albanians have practically no rights whatsoever. 
Five percent or less of the Serbs in northern Kosovo have much 
greater rights, including language rights, than probably 40 
percent of the country or let's say at least 35 percent of the 
country in Macedonia. So, what is here for Albanians?
    We should have had a solution to this 16 years ago to stop 
the violent conflict between the Albanians in Macedonia and the 
Slavs. We guaranteed with Europe something called the Oher/
Ohrid Agreement. Sixteen years have passed by and things have 
only gotten worse because Gruevski, like a racketeer, the way 
he is, he co-opted the junior Albanian Party that came into 
office, and nothing has been done.
    So, one of the recommendations I am going to make to you is 
that we have to go forward with the State Department, the U.S. 
taking a much more active role in a framework to implement the 
rights of the Ohrid Agreement. We must get that constitution 
changed so that it codifies the fact that you have at least two 
major ethnic groups in this state that need equal rights, 
because there is nothing like equal rights.
    You talk about the economic discrimination and the 
political corruption against the Albanian people. It is 
monstrous, and just economic discrimination. Many jobs are 
given out in the government. If you have 33 percent and they 
were supposed to get up to 25 or 30 percent on the Albanian 
side, they haven't put 10; it is around 7 percent, no jobs. The 
unemployment rate must be just like what is going on in Bosnia 
right now, the highest in Europe.
    Mr. Rohrabacher. Joe, you have----
    Mr. DioGuardi. May I put on the record--I have just 
summarized by comments. I want to read my full testimony on the 
record in writing.
    I would like to, then, put the interview by the person who 
saved Ziadin Sela, the Albanian security guard. I had it 
translated from Albanian to English.
    I want to put in some of the photos you haven't seen, 
because when he was here 2 years ago he also met with Senator 
McCain. And hopefully, that will be done by the doctor before 
he goes back.
    And I want to put on the record this statement that I put 
on the record in 1991 when Chairman Pell was the chairman of 
the Senate Foreign Relations Committee and in 1998 when Senator 
Biden was. It is the expulsion of the Albanians by Vaso 
Cubrilovic, 1937. This paper is the modus operandi of the Slavs 
and the Serbs. They wanted to get rid of all Albanians. I have 
quoted it in my testimony. I want to put the entire document on 
the record, so you can see they are not going to give up on 
this.
    And two articles, sir, one from Mr. Foray, one of the----
    Mr. Rohrabacher. Joe, without objection, all that will be 
put into the record.
    Mr. DioGuardi. Okay. Thank you.
    Mr. Rohrabacher. But you did twice as much as everybody 
else.
    Mr. DioGuardi. Thank you. I appreciate it.
    [The prepared statement of Mr. DioGuardi follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
    
                              ----------                              

    Mr. Rohrabacher. Mr. Serwer?

    STATEMENT OF DANIEL SERWER, PH.D., ACADEMIC DIRECTOR OF 
CONFLICT MANAGEMENT, SCHOOL OF ADVANCED INTERNATIONAL STUDIES, 
                    JOHNS HOPKINS UNIVERSITY

    Mr. Serwer. Thank you, Mr. Chairman and Mr. Meeks. With 
permission, I would like to submit a written statement for the 
record and use a few minutes for just three key points.
    First, the countries of the region made remarkable progress 
in the 10 years or so after the NATO intervention in Bosnia in 
1995. But in the last 10 years, these past 10 years, the U.S. 
effort to pass the baton of leadership to the European Union 
has allowed slippage in Bosnia, Kosovo, Serbia, and Macedonia. 
There are now risks of instability that could trigger a 
regionwide convulsion. That would reflect badly on America's 
global leadership role, unravel three peace agreements, and 
cost us far more than conflict prevention.
    Second, those who say ethnic partition through 
rearrangement of borders would be a viable solution are playing 
with matches near a powder keg. Moves in that direction would 
lead to violence, including ethnic cleansing, crimes against 
humanity, and even genocide.
    It happened in the 1990s and it could happen again. Mono-
ethnic states cannot be achieved without a massive and 
expensive peacekeeping deployment. Ethnic partition would not 
only be violent, it would also generate a new flood of refugees 
and creation of Islamic mini-states in parts of Bosnia, Kosovo, 
and Serbia proper.
    This was the main reason we refused to move borders in the 
1990s. Americans should be even more concerned about it today.
    The Islamic state and al-Qaeda have had more success 
recruiting in the Balkans than many of us thought possible, 
given the pro-Western and pro-American attitudes of most 
Muslims in the region. Reducing Balkan Muslims to rump mono-
ethnic states would radicalize many more.
    Damage would not be limited to the Balkans. Russia would 
welcome ethnic partition because it would validate Moscow's 
destructive irredentist behavior in South Ossetia, Abkhazia and 
Transnistria, Crimea, and Donbass, as well as give Moscow a 
stronger foothold in the region. It would also leave a 
geographic gap in NATO and the EU that we have long hoped would 
be filled with friends and allies.
    My third point is this: I see no serious alternative in the 
Balkans to the political and economic reforms required for each 
of the countries of the region to be eligible for NATO and EU 
membership. All want to join the EU, which, unfortunately, will 
not be able to begin admitting them until 2020 at the earliest. 
That leaves NATO membership as the vital carrot for reform 
except in Serbia. We need to do more to enable Balkan countries 
that want to do so to join the alliance, as Montenegro is doing 
right now.
    Let me summarize what this really means. In Macedonia it 
means Europe and the U.S. need to tell Greece it will be 
invited to join NATO once it reestablishes transparent and 
accountable democratic governance.
    In Kosovo it means ensuring Pristina develops an army 
designed for international peacekeeping that poses no threats 
to Serbs. For that, Serbia will need to accept Kosovo's 
sovereignty and territorial integrity by allowing U.N. 
membership.
    In Bosnia-Herzegovina, NATO members should tell Republic 
Srpska secession will gain no Western recognition or aid for it 
or any country it joins, including from the IMF and the World 
Bank.
    These and other suggestions in my written testimony would 
put the region back on track and prevent the peace agreements 
of the 1990s and 2001 from unraveling. So, too, would ensuring 
that Balkan countries have access to energy supplies from 
countries other than Russia: Natural gas from Azerbaijan, LNG 
from the U.S., or eventually Mediterranean gas from Cyprus or 
Israel.
    Mr. Chairman, I have just outlined a substantial list of 
diplomatic tasks. If the administration commits to them, 
implementation might require an American Special Envoy. But a 
policy should come first, one based on maintaining current 
borders, preventing ethnic partition, and pushing hard for NATO 
and EU membership.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Serwer follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                              ----------                              

    Mr. Rohrabacher. I think you get the Golden Cup for being 
right on time. Okay. [Laughter.]
    I will start the questions and, then, we will move from 
there to Mr. Meeks.
    Mr. Bardos, you have used for the first time the words that 
I know would eventually emerge, the words ``the new Cold War.'' 
I don't know who wants it, but somebody wants war with Russia. 
And it is more than just a fear of Russia; somebody wants there 
to be a new Cold War.
    I have spent a considerable part of my life trying to 
defeat the Soviet Union, both in the White House and in the 
field against Soviet troops, et cetera. And I started, anyway, 
when I was a teenager.
    But the bottom line is that we don't want a Cold War; the 
American people don't want a Cold War. Yet, we have an 
unrelenting hostility that says that we have to watch out for 
even Russia's influence on a region. I see no reason why Russia 
shouldn't be able to sell energy to any country that it wants 
to or any country. I don't see that as a hostile act to the 
United States.
    Let me just note, if we are going to solve this, we have 
got to move forward in a positive way rather than looking at 
this as some kind of we are going to do this, so just screw the 
Russians. That is not going to bring about a better world.
    But we know something needs to be done in the Balkans 
because it is not working. And just like you said, Doctor, when 
the EU took over, basically, some of the major leadership from 
the United States, things started going haywire. And it has 
continued to go haywire for the last 10 years.
    So, with that, why not make a different kind of approach. I 
think what is motivating us is there are some very powerful, 
monied interests in Europe that want to see the Balkans toeing 
the line that they dictate.
    What about encouraging these countries to form a new 
Southern European Economic Union together? They can't call it 
Yugoslavia, but they can call it whatever else they want to 
call it. The bottom line is that, if you had open-borders type 
of free trade by these countries, it would be a tremendous 
benefit to them. So, instead of us pushing to try to get them 
to do whatever the German banks tell them to do in order to get 
into the EU, maybe we should be telling them, ``Why don't you 
start working together and opening up trade between each other 
and tearing down these boundaries, economic boundaries?'' What 
do you think about that? Please, 1 minute, we will start with 
Bardos. Start with Joe in the middle and, then, go to the 
right. Go ahead.
    Mr. DioGuardi. Okay. It is not going to work, Mr. Chairman. 
Let me tell you why. You have got such political corruption now 
in Albania, in Macedonia, in Kosovo, in Serbia. The rich are 
getting richer, and the poor are getting poorer. The people are 
not being served by these governments.
    I don't know what is going to happen after the elections in 
Kosovo and in Albania. Nobody agrees on anything, apparently. I 
think that it is time for the U.S. to realize that, by 
abandoning the Balkans to the European Union, we have failed. 
The Ohrid Agreement was guaranteed by the U.S. and by the 
European Union. It did nothing. It is worse now than it was 
before.
    So, how could we look at normal ways of thinking to create 
an economy in Southeast Europe?
    Mr. Rohrabacher. Got it, Joe, but now tell us your 30-
second answer of your plan.
    Mr. DioGuardi. The plan--and I hate to see these cuts for 
the State Department; it doesn't make any sense--we need to be 
much more engaged than we are. We are fooling ourselves if----
    Mr. Rohrabacher. What are we pushing for?
    Mr. DioGuardi. For instance, get Ohrid back on. It was 
signed off, but let's have an ``implementation framework'' that 
we are monitoring very closely. Not saying, well, let the 
European Union do it and we will figure out what goes on later.
    So, we have got to take baby steps. This is not going to be 
solved very fast. The racism that exists from the Slavs to the 
Albanians is so great because of the paper I just mentioned: 
``We have got to get rid of the Albanians at all costs.'' 
Basically, that is what this paper says.
    And that is one of the reasons why Milosevic went to The 
Hague, because we brought him to The Hague and made sure that 
paper was put on the record, so that they knew Albanians could 
never coexist in Serbia and in Kosovo with this kind of 
thinking. And now, Gruevski is doing it in Macedonia.
    So, I don't know what the answer is.
    Mr. Rohrabacher. Okay. Well, let's go to the doctor who may 
know the answer.
    Mr. Serwer. Mr. Chairman, I won't claim to know the answer. 
What I will tell you is that it is worth a look. I think we 
have not maximized the economic advantages of peace after----
    Mr. Rohrabacher. And cooperation.
    Mr. Serwer [continuing]. After 1995 and 2001.
    These countries do have good access to European markets 
through their stabilization and association agreements. I think 
they have quite a bit of access to each other's markets as 
well. But that is a proposition that would have to be studied 
in some depth and with some care. And I, frankly, haven't seen 
such a study. Maybe, Gordon, you know.
    Mr. Rohrabacher. Thank you.
    Dr. Bardos?
    Mr. Bardos. Well, it is a very commonsensical and logical 
idea. As a matter of fact, the current Serbian Prime Minister, 
soon to be President, Vucic, proposed something like that a few 
weeks ago, a kind of Balkan common market.
    The problem with it, I think a lot of the problem with it 
right now is political. Emotions are still too raw among the 
different peoples in the region. Some people think that Serbia 
will wind up dominating such an arrangement and they don't want 
to see that happening. Some people think it might be like a 
recreation of the old Yugoslavia, and they don't want that, to 
see that happening.
    I think there is something in place--and, unfortunately, I 
am not an economist, so I don't know this in great detail--
there is something called CEFTA, the Central European Free 
Trade Association or Agreements. I can't remember all the 
specifics of it. Something like that does exist.
    I think a good step in this direction, though, would be to 
start promoting what might be politically possible, and to 
start promoting as many bilateral free trade agreements as 
possible, start opening up the markets that way.
    So, maybe, obviously, it might not work between Serbian and 
Kosovo now or between Kosovo and Macedonia, but if you could 
see something, you could see trade freeing up considerably 
between Serbia and Bosnia, for instance, or between Croatia and 
Bosnia, and permutations like that.
    Mr. Rohrabacher. We know something has to happen. The 
bottom line is that you have people suffering there 
economically. You have young people who have no hope of jobs.
    Mr. Bardos. Right.
    Mr. Rohrabacher. You have got people who are--when people 
lose hope, they turn to extremism. And the last thing we need, 
whether they are Christian extremists or whether they are 
Muslim extremists, we do not need them turning to their 
religion and becoming extremists and, then, joining in with 
others to commit acts of violence. And that is a real not only 
possibility; it has already been in your testimony. You 
mentioned that that is being seen now for not the first time, 
but it we are easing into a situation where that didn't exist, 
and now it is becoming a part of the reality of the Balkans.
    So, we need to get moving. We need to be engaged. And I 
will have a very short closing statement, but Mr. Meeks has the 
floor now.
    Mr. Meeks. Thank you, Mr. Chairman, again.
    Interesting dialog. Let me just pick up where some are 
talking about. I know I will start with Dr. Serwer. In March 
2017, this year, the leaders of Albania, Bosnia, Kosovo, 
Macedonia, Montenegro, and Serbia met. They all got together 
to, I guess, reignite this regional cooperation and reaffirm 
their shared interests in eventually joining the EU, if 
possible, and putting forward a plan for the Western Balkans. 
And I think they have planned another meeting sometime this 
year. I think it is July.
    So, my question to you is, do we, the United States of 
America, should we have an interest in these meetings, in these 
meetings continuing? Are these meetings a positive step that 
may lead to something or toward mutual cooperation? And if you 
think it is, how do you think the United States should support 
such meetings?
    Mr. Serwer. Mr. Meeks, I am under the impression that the 
United States has given ample support to these kinds of 
regional arrangements which exist among the Defense Ministers, 
among the Interior Ministers, and also for regional, economic 
and infrastructure cooperation. There is, however, very little 
progress on regional infrastructure. The EU has promised a lot 
of money, but hasn't really started the digging yet.
    I am under the impression that we have provided a lot of 
diplomatic support to those efforts. We don't have the kind of 
bilateral assistance money that helps much in this game. We, 
frankly, have been out of the infrastructure game for the most 
part. We need to see the World Bank, in particular, and the 
European Union pick up the bills for roads, for railroads, and 
for airports in the region.
    I think it would have been better to have asked Mr. Yee, 
but I think he would say, ``Look, we have been fully supportive 
of all the regional cooperative arrangements.'' And they are 
quite successful, I must say. These guys meet all the time.
    Mr. Meeks. Mr. Bardos, you mentioned that the new Serbian 
President talked about having a Western Balkans custom union or 
something of that nature. You mentioned that. Is that a good 
idea? Was that something that would help some of the economic 
instability in the region? Is that a step in the right 
direction? And what influence do you think that the new 
President of Serbia will have in the region?
    Mr. Bardos. It is a very good. It is, as I said, very 
commonsensical, very logical, if it would reduce tariff 
barriers, make transporting goods easier, moving labor or 
capital, and so forth. It could be a spurt to economic 
development and activity in the region, and so forth.
    But, again, the problem right now at this point is 
political. I think there is too much--as I said, the emotions 
are too raw right now. People are still very leery about 
anything that looks like recreating Yugoslavia. And there is 
also the fear that this might be, the Europeans might be 
offering this in place of European Union membership. So, that 
is what a lot of people in the region are afraid of, too; that, 
okay, the Europeans have given up on taking the Western Balkans 
into the EU. So, this is kind of our consolation prize. So, you 
are getting a little kind of political and emotional pushback 
because of that as well. But it is a very good idea.
    Mr. Meeks. Do you agree?
    Mr. DioGuardi. When you mentioned Radovan Karadzic, you are 
talking about the people that were wounded by Slobodan 
Milosevic. The biggest racist you are ever going to find, what 
he did, he got convicted. Well, he died in a prison cell 
because he didn't take his heart medicine, but he was about to 
get convicted for war crimes and genocide against the Albanian 
people.
    What did Radovan Karadzic say recently? They signaled that 
they will definitely come in to support Gruevski, the guy that 
did this. And what they want is in an ethno-ethnic name; they 
want an excuse. They want to see the Albanians out so badly 
that they want to see an ethno-ethnic. Even though it is a 
political conflict and an economic problem, they want it to be 
ethno-ethnic because that would throw Russia in, and then, 
Russia would probably support, obviously, the Serbs. And it 
would be, again, a war against the Albanians. So, we have got 
to be very careful here.
    Mr. Meeks. My last question. I see I am just about out of 
time, and I know we have got votes getting ready to come up.
    My other concern is Bosnia and its current troubles with 
its ethnic minority population, of course, and the corruption 
and its relatively weak central government. How can we 
encourage others in the region, the regional actors to better 
cooperate and to support an independent Bosnia? I think that is 
real important. Is there something that we can do, is there a 
role that we can play to help make that happen? Dr. Serwer?
    Mr. Serwer. Yes, in short, we should be encouraging 
Belgrade to do what it has any number of times said it would 
do, which is to be supportive of a sovereign and integral 
Bosnia. But much more is needed because we have in Republic 
Srpska somebody who has promised an independence referendum, 
who clearly is in violation of the Dayton Accords. We have 
designated him under our Treasury regulations. And we need to 
do more to ensure that he is not a dominant political force in 
Bosnia, if Bosnia is going to stay in one piece.
    The way to do that in my view is to talk with the 
Europeans. I mean, the Europeans have to be worrying. When we 
designate somebody using the Treasury's powers, the Europeans, 
more often than not, do not follow suit. They use those tools 
much more sparingly than we do, and that has to do with 
politics inside the EU. We need to be getting them to follow 
suit. I think preventing Mr. Dodik himself and some of his 
people from traveling in and using the financial system of the 
European Union would be a very serious sanction.
    So, I think Serbia is ready in many ways to do the right 
things, but it is Europe that hasn't done as much of the right 
things as I would like to see.
    Frankly, Bosnia is a problem because of the constitution 
that we wrote for the country and that they wanted for the 
country. It is very hard to change that constitution, but I 
have no doubt but that we will be having problems with Bosnia 
until it at least has a clause in its constitution that says 
the central government has the authority, all the authority it 
needs, to negotiate and implement the rules of the European 
Union. That would be my simple solution in Bosnia.
    Mr. Meeks. Thank you, and I want to thank all of you for 
your testimony. I am simply out of time here, and I know that 
we have votes coming up and the chairman wants to do his 
closing remarks.
    Mr. Rohrabacher. Remarks. There you are.
    Mr. DioGuardi. I wanted to make a comment on that. Can I? 
Just one quick comment, please?
    Mr. Rohrabacher. Oh, yes, sure, Joe.
    Mr. DioGuardi. You can't trust Serbia. Mr. Dodik is taking 
his orders from Belgrade. Serbia wants at some point not only 
to have influence in Srpska, but to make it part of Serbia, the 
same thing that is going on in northern Kosovo.
    And listen, Serbia still has not recognized Kosovo. They 
want to become part of the European Union. Part of that was 
good neighborliness. What good neighbors are Serbs to Kosovo 
and Albanians? They have gotten worse, not better. So, you have 
got to watch out for Serbia. They are the bad man in the 
neighborhood, and you are not going to get them to change 
anything because the issue is not ``Greater Albania''; it is 
``Greater Serbia.''
    Mr. Rohrabacher. Well, that was an interesting last bit of 
testimony: Watch out for Serbia.
    Mr. DioGuardi. Yes. Am I right? [Laughter.]
    Mr. Rohrabacher. Well----
    Mr. DioGuardi. Ask the Albanians. [Applause.]
    Mr. Rohrabacher. My theory is watch out for bad guys. 
Listen, there are good people in every one of those ethnic 
groups that you are talking about.
    Mr. DioGuardi. Right.
    Mr. Rohrabacher. There are good people----
    Mr. DioGuardi. You're right.
    Mr. Rohrabacher. There are good people who are Serbs and 
there are good people who are Albanians. There are good 
Muslims. There are good Christians. And what we have to try to 
do, if there is going to be peace, is try to seek out the good 
people in all those communities and say it is about time we get 
moving. We have stagnated enough. We have 20 years of going 
nowhere because we are only concerned about the bad guys over 
there and there are all the bad guys.
    The fact is that there are bad guys, as I say, in all of 
these countries, but there are good guys. And the good guys I 
think are capable of working together if the United States 
provides leadership. And we have to provide leadership with 
people knowing that we care about things like that. When you 
have people being beaten up, we care about that. And we have to 
be forceful and let people on the other side know that is 
unacceptable. And we also have to have some creative 
approaches.
    Let me just say that this idea, I don't know, every time I 
have gone down to the Balkans, they seem to have the same 
concept: Let's get a part, we have got to get a part of the EU, 
and we have got to be part of NATO. Well, this is like, ``I've 
really got to get to the Titanic before it sails.'' And, in 
fact, the Titanic has already sailed. ``I'll pay you to put me 
on the Titanic. Get me a rowboat or get me a motorboat and get 
me on that ship.''
    The EU is the past and it is not working. If we can come up 
with some positive solutions and have some energy and some 
excitement about really economic coalitions that work--let's 
look back when things were really bad. And I can tell you, 
there were really bad guys in Germany in World War II, and we 
came along with the Marshall Plan. I have read about the 
Marshall Plan. Probably some of you, probably the doctor knows 
a lot more than me.
    But the Marshall Plan, what did it do? What was the most 
important thing it did? It made sure that all of these 
inhibitors to trade between their countries, the European 
countries that had been at war with each other, they got rid of 
those impediments, and they encouraged people to economically 
cooperate. So, that is what made the European situation better 
in the first place.
    None of that has been tried in the Balkans. I will tell 
you, Joe, if a lot of Serbs are bad, there were a lot of 
Germans that were bad at that time, and we made sure that we 
integrated them into a situation. And now, of course, they are 
calling the shots on the World Bank and a lot of other places.
    Mr. DioGuardi. Mr. Chairman, you made a very good point. 
The people are good; it is the governments that are bad.
    Mr. Rohrabacher. Okay. All right.
    Mr. DioGuardi. How do you deal with these corrupt 
governments? That is the problem.
    Mr. Rohrabacher. Well, it is up to us to make sure that we 
are encouraging the good people, and I don't know, we do 
respect democracy. We do respect who gets elected and the rules 
of the game.
    Let me just say this committee paid a lot of attention to 
the Baltics. And as I say, as we got in the Baltics, I did not 
find the Russian military aggression everybody was talking 
about.
    And we have spent a lot of time in this committee going 
over Turkey, and Turkey has turned out to be the disaster that 
we thought it might be.
    And this subcommittee has held numerous hearings with 
numerous ideas going into this. I can assure you that now we 
are going to be focusing on the Balkans to try to come up with 
ways that we can actually work with people there, the good 
people there in all of these countries, try to find some 
cooperation, some areas of cooperation, and make it happen.
    So, with that said, you can count on us, this is just the 
second of a hearing series. We are going and there will be a 
codel, a major codel, just to the Balkans probably in August. 
We will visit these areas, and we would really be happy for any 
advice that any of you could give us as to who we would meet 
with there.
    So, with that said, I want to thank the witnesses and thank 
Mr. Meeks. We had a good one again.
    Mr. Meeks. A good one again.
    Mr. Rohrabacher. And this committee is adjourned.
    [Whereupon, at 4:16 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

               
 Material submitted for the record by the Honorable Eliot L. Engel, a 
         Representative in Congress from the State of New York
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


 Material submitted for the record by the Honorable Eliot L. Engel, a 
         Representative in Congress from the State of New York
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




 Material submitted for the record by the Honorable Eliot L. Engel, a 
         Representative in Congress from the State of New York
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Material submitted for the record by the Honorable Joseph J. DioGuardi, 
 founding president, Albanian American Civic League (former Member of 
                               Congress)
                               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





Material submitted for the record by the Honorable Joseph J. DioGuardi, 
 founding president, Albanian American Civic League (former Member of 
                               Congress)
                               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




Material submitted for the record by the Honorable Joseph J. DioGuardi, 
 founding president, Albanian American Civic League (former Member of 
                               Congress)
                               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


      
      
      
Note: ``Albania's Prosecutor's Office, Judicial Reform, & the Role of 
US Ambassador Donald Lu in Tirana,'' submitted for the record by the 
Honorable Dana Rohrabacher, a Representative in Congress from the State 
of California, and chairman, Subcommittee on Europe, Eurasia, and 
Emerging Threats and ``The Explusion of the Albanians,'' submitted for 
the record by the Honorable Joseph J. DioGuardi, founding president, 
Albanian American Civic League (former Member of Congress), are not 
reprinted here but may be accessed on the Internet with the following 
link: 
http://docs.house.gov/Committee/Calendar/ByEvent.aspx?EventID=105978




[Note: Responses were not received to the previous questions prior to 
printing.]

         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[Note: Responses were not received to the previous questions prior to 
printing.]

           
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

[Note: Responses were not received to the previous questions prior to 
printing.]

                                 <all>
</pre></body></html>
